No. 19-1257
In the Supreme Court of the United
__________________

States

MARK BRNOVICH, ATTORNEY GENERAL OF ARIZONA, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

__________________

BRIEF OF KENTUCKY SECRETARY OF STATE
MICHAEL ADAMS, LOUISIANA SECRETARY OF
STATE R. KYLE ARDOIN, AND MISSOURI
SECRETARY OF STATE JOHN R. ASHCROFT AS
AMICI CURIAE IN SUPPORT OF THE PETITIONERS

__________________

VICTOR B. MADDOX
Assistant Deputy Attorney General
BRETT R. NOLAN
Special Litigation Counsel
Counsel of Record
Office of the Kentucky
Attorney General
700 Capital Ave., Ste.118
Frankfort, KY 40601
(502) 696-5300
Brett.Nolan@ky.gov
Counsel for Amici Secretaries of State
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTERESTS OF AMICI CURIAE . . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I. The equal-opportunity approach to identifying a
discriminatory burden . . . . . . . . . . . . . . . . . . . . . 5
II. The disparate-impact approach to proving a
discriminatory burden . . . . . . . . . . . . . . . . . . . . . 8
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

ii
TABLE OF AUTHORITIES
CASES
Democratic Nat’l Comm. v. Hobbs,
948 F.3d 989 (9th Cir. 2020). . . . . . . . . . . . . . . . 89
Frank v. Walker,
768 F.3d 744 (7th Cir. 2014). . . . . . . . . . . . . . . 5, 6
League of Women Voters of North Carolina v.
North Carolina, 769 F.3d 224 (4th Cir. 2014) . . . 9
Lee v. Virginia State Board of Elections,
843 F.3d 592 (4th Cir. 2016). . . . . . . . . . . . . 6, 7, 9
Michigan State A. Philip Randolph Inst. v.
Johnson, 833 F.3d 656 (6th Cir. 2016). . . . . . . . . 9
Ohio Democratic Party v. Husted,
834 F.3d 620 (6th Cir. 2016). . . . . . . . . 2, 3, 4, 7, 9
Smith v. Salt River Project Agric. Improvement &
Power Dist., 109 F.3d 586 (9th Cir. 1997) . . . . . . 9
Thornburg v. Gingles,
478 U.S. 30 (1986). . . . . . . . . . . . . . . . . . . . . . . 2, 4
Veasey v. Abbott,
830 F.3d 216 (5th Cir. 2016). . . . . . . . . . . . . . . . . 6
STATUTES
52 U.S.C. § 10301(a). . . . . . . . . . . . . . . . . . . . . . . . 2, 4
52 U.S.C. § 10301(b). . . . . . . . . . . . . . . . . . . . . passim

1
INTERESTS OF AMICI CURIAE1
The amici Secretaries of State2 are chief election
officials responsible for regulating, securing, and
overseeing the election processes in each of their
respective States. Though each State has different
procedures for administering an election, the common
goal remains the same: to ensure open, fair, and secure
elections—both in fact and in the minds of the
electorate. The institutions of government at all levels
depend on public faith in the process. Fair and open
elections are critical to maintaining that faith.
This case raises a significant question about how to
interpret Section 2 of the Voting Rights Act when
challenging a State’s election procedures. The Courts of
Appeals have split over the standard for proving a
discriminatory burden under the Act. And this split
creates uncertainty for the public officials tasked with
ensuring the integrity of each election. It threatens to
leave those officials, like the amici Secretaries,
paralyzed between two possibilities: avoid the threat of
litigation with a hands-off approach, leaving elections
unordered and unsecured, or impose rules against a

1

Amici have notified counsel for all parties of their intention to file
this brief, and counsel for all parties have consented to the filing
of this brief. No counsel for any party authored this brief in whole
or in part, and no person other than amici curiae or its counsel
made any monetary contributions intended to fund the preparation
or submission of this brief.
2

The amici Secretaries of State are: Kentucky Secretary of State
Michael Adams, Louisiana Secretary of State R. Kyle Ardoin, and
Missouri Secretary of State John R. Ashcroft.

2
backdrop of legal uncertainty that may doom their
efforts largely based on geography.
Absent congressional clarification, only this Court
can resolve the inconsistencies among the circuits and
provide a clear rule. This case presents an excellent
opportunity for the Court to expand on its decision in
Thornburg v. Gingles, 478 U.S. 30 (1986), and to
articulate a clear standard for determining when a
State’s election procedures impose a discriminatory
burden in violation of Section 2 of the Voting Rights
Act.
SUMMARY OF THE ARGUMENT
Section 2 of the Voting Rights Act prohibits States
from implementing voting qualifications, prerequisites,
or other election procedures that “result[] in a denial or
abridgement of the right” to vote “on account of race or
color.” 52 U.S.C. § 10301(a). The Act ensures that
members of a protected class have an equal
“opportunity” to “participate in the political process and
to elect representatives of their choice.” 52 U.S.C.
§ 10301(b). As this Court explained in Gingles, “[t]he
essence of a § 2 claim is that a certain electoral law,
practice, or structure interacts with social and
historical conditions to cause an inequality in the
opportunities enjoyed by black and white voters to elect
their preferred representatives.” 478 U.S. at 47.
Generally speaking, Section 2 “encompasses two
types of claims.” Ohio Democratic Party v. Husted, 834
F.3d 620, 636 (6th Cir. 2016). A vote-dilution claim
arises when the plaintiffs allege they have been denied
an equal-opportunity to “elect representatives of their

3
choice.” 52 U.S.C. § 10301(b). A vote-denial claim, on
the other hand, is based on the allegation that the
plaintiffs have been denied the opportunity “to
participate in the political process.” Id. “While votedilution jurisprudence is well-developed,” Ohio
Democratic Party, 834 F.3d at 636, this Court has
never articulated a standard for assessing vote-denial
claims. And without guidance from this Court, the
lower courts have splintered over the proper legal
framework to apply.
The Courts of Appeals seem to agree that the
threshold question for a vote-denial claim is whether
the challenged election procedure causes a
discriminatory burden on the right to vote. But they
disagree over what exactly that means. Four
circuits—the Fourth, Fifth, Sixth, and Seventh—all
require plaintiffs to demonstrate that the State’s
election process causes members of a protected class to
have “less opportunity” to cast a ballot. The Ninth
Circuit, however, focuses only on whether the
challenged law creates a statistical disparity in
minority participation. So long as that disparate
impact is more than de minimis, the Ninth Circuit has
held, the law creates a discriminatory burden.
Only this Court can resolve this conflict. The lower
courts have had ample opportunity to weigh the text,
history, and precedents of the Voting Rights Act, and
they have reached two incompatible conclusions.
Election laws that are legal in one state might be
deemed illegal in others. As a result, election officials
like the amici Secretaries lack the certainty needed to
ensure that States administer fair, open, and lawful

4
elections. This Court should grant certiorari to provide
that certainty for these kinds of claims.
ARGUMENT
Section 2 of the Voting Rights Act prohibits states
from imposing laws that “result[] in a denial or
abridgement” of the right to vote. 52 U.S.C. § 10301(a).
States violate the Act when an election procedure or
process causes members of a minority class to have
“less opportunity” to participate in the political process.
52 U.S.C. § 10301(b). “The essence of a § 2 claim is
that a certain electoral law, practice, or structure
interacts with social and historical conditions to cause
an inequality in the opportunities enjoyed by black and
white voters to elect their preferred representatives.”
Gingles, 478 U.S. at 47.
When a plaintiff challenges an election procedure on
the basis that it “results in a denial or abridgement” of
the right to vote—a “vote denial” claim—the Courts of
Appeals generally apply a two-step framework. Under
step one, the courts consider whether the challenged
procedure imposes a discriminatory burden on the
right to vote for members of a minority class. If so, the
courts move to step two and determine whether that
burden is “caused by or linked to social and historical
conditions that have or currently produce
discrimination against members of the protected class.”
Ohio Democratic Party, 834 F.3d at 637.
This case is about step one. What qualifies as a
“discriminatory burden” under Section 2 of the Voting
Rights Act? In answering that question, the Courts of
Appeals have divided, leaving public officials like the

5
amici Secretaries uncertain as to what the law
requires. As a result, commonly used election
procedures face dramatically different review
depending on where they are enacted. And election
officials are unable to navigate new problems with new
solutions without fear of violating the law. The amici
Secretaries need clarity on this issue to effectively
regulate elections within their States and ensure
stability in the process.
I. The
equal-opportunity
approach
identifying a discriminatory burden.

to

At least four circuits have, at some point, applied an
equal-opportunity test for identifying the kind of
discriminatory burden that gives rise to a vote-denial
claim. Under this approach, if an election procedure
results in a disparate impact on minority participation,
the court must determine whether the challenged
procedure causes that disparate impact by diminishing
the opportunity to cast a ballot. Thus, in these circuits,
the potential for a disparate impact alone does not
prevent States from implementing new regulations
that might otherwise promote the integrity and
fairness of an election. So long as election officials
ensure that minority voters do not have “less
opportunity” to cast a ballot, see 52 U.S.C. 10301(b),
new procedures or regulations will survive a Section 2
challenge.
Judge Easterbrook explained the equal-opportunity
approach in Frank v. Walker, 768 F.3d 744 (7th Cir.
2014), a case in which the Seventh Circuit rejected a
challenge to Wisconsin’s photo-ID law despite
statistical evidence showing that minority voters were

6
less likely to have the required identification. As the
Seventh Circuit explained, “in Wisconsin everyone has
the same opportunity to get a qualifying photo ID.” Id.
at 755. So whatever statistical disparity might exist
among racial groups, the court reasoned, it did not
arise because there was less opportunity for minorities
to vote. Id. at 753 (“[T]hese groups are less likely to use
that opportunity.”). And since the text of Section 2
addresses the “opportunity” for members of a protected
class to participate in an election, 52 U.S.C. 10301(b),
the Seventh Circuit concluded that a disparate impact
on participation is itself not enough to raise a claim.
The Fourth, Fifth, and Sixth Circuits have adopted
a similar approach. In Veasey v. Abbott, 830 F.3d 216
(5th Cir. 2016) (en banc), the Fifth Circuit sustained a
challenge to Texas’s voter-ID law based on significant
evidence that minorities faced “specific burdens in
attempting to obtain [identification] or vote.” Id. at 254.
Unlike Frank, Veasey was not a case about disparate
impact alone. The Fifth Circuit found that the burden
on minority opportunity “rest[ed] on far more than a
statistical disparity.” Id. at 253–54. Because of that,
the court held that the plaintiffs had demonstrated the
requisite discriminatory burden under Section 2.
Applying a similar standard in Lee v. Virginia State
Board of Elections, 843 F.3d 592 (4th Cir. 2016), the
Fourth Circuit rejected a challenge to Virginia’s voterID law because “the plaintiffs . . . simply failed to
provide evidence that members of the protected class
have less of an opportunity than others to participate
in the political process.” Id. at 600. This was true, the
Fourth Circuit explained, even though minority voters

7
were statistically less likely to have the qualifying
identification. Id. at 600–01. “We conclude that § 2 does
not sweep away all election rules that result in a
disparity in the convenience of voting,” the court held.
Id. at 601. Because Virginia “provides every voter an
equal opportunity to vote,” the voter-ID law did not
violate Section 2. Id. (emphasis added).
Likewise, the Sixth Circuit adopted the equalopportunity approach in Ohio Democratic Party v.
Husted. 834 F.3d at 623. There, the Court of Appeals
reversed an injunction against Ohio’s law that reduced
the early-voting period from 35 days to 29 days and
eliminated same-day registration and voting. Id. In
doing so, the court clarified the standard by explaining
that “the first element of the Section 2 claim requires
proof that the challenged standard or practice causally
contributes to the alleged discriminatory impact by
affording protected group members less opportunity to
participate in the political process.” Id. (emphasis
added).
Each of these courts grounded its analysis in the
text of Section 2 and provided a clear roadmap for
election officials to ensure their practices conform to
the law. So long as new procedures do not diminish the
“opportunity” of minority voters to participate in the
“political process,” 52 U.S.C. 10301(b), officials
following this roadmap can take proactive steps to
ensure elections remain open and fair without fear of
violating the law.

8
II. The disparate-impact approach to proving a
discriminatory burden.
The second approach to proving a discriminatory
burden, adopted most prominently by the Ninth Circuit
below, dispenses with the focus on the “opportunity” of
members in a protected class to vote, instead focusing
on the statistical disparity between participation rates.
Election officials weighing new procedures under this
standard must consider whether the procedure will
cause a more-than-de-minimis disparate impact on the
participation of minority voters. If so, the procedure
imposes a discriminatory burden. See Democratic Nat’l
Comm. v. Hobbs, 948 F.3d 989, 1015–16 (9th Cir.
2020).
In the decision below, the plaintiffs challenged two
different voting procedures in Arizona under Section 2.
The first is Arizona’s rule that only allows counting inperson ballots if the voter actually lives within the
precinct in which he or she votes. The second is
Arizona’s prohibition on allowing third parties to collect
absentee ballots on behalf of other voters. These
provisions, the plaintiffs claim, disproportionally
burden the ability of minorities to participate in the
election.
The Ninth Circuit agreed. Finding that the evidence
showed “more than a de minimis” statistical impact on
minority voters, id., the court held that the plaintiffs
met the threshold step of proving a discriminatory
burden under Section 2. In doing so, the court (sitting
en banc) departed from precedent in which the Ninth
Circuit had previously held that a “showing of
disproportionate impact on a racial minority does not

9
satisfy the § 2 ‘results’ inquiry.” Smith v. Salt River
Project Agric. Improvement & Power Dist., 109 F.3d
586, 595 (9th Cir. 1997). Under the new rule
announced below, a statistical disparity is enough so
long as that disparity is more than de minimis.
Other courts have articulated a similar standard.
Before rejecting the disparate-impact approach in Lee,
the Fourth Circuit seemed to endorse it in League of
Women Voters of North Carolina v. North Carolina, 769
F.3d 224, 244–45 (4th Cir. 2014). There, the court
explained that the first question in a Section 2 claim is
“whether [the challenged law] imposes a discriminatory
burden on members of a protected class.” Id. at 245.
The court then answered that question by considering
only whether the law “disproportionately impact[ed]
minority voters.” Id. Similarly, the Sixth Circuit tacitly
approved of this same approach when it affirmed a
district court’s injunction based on a law’s
“disproportionate effect on African-American voters.”
Michigan State A. Philip Randolph Inst. v. Johnson,
833 F.3d 656, 668 (6th Cir. 2016). The court issued this
decision less than a week before a different panel in the
same circuit adopted the equal-opportunity approach
discussed above. Compare Johnson, 833 F.3d at 668,
with Ohio Democratic Party, 834 F.3d at 637–38. So
while the Ninth Circuit was not the first court to
pioneer its interpretation of Section 2, other courts
doing so have run into intra-circuit conflicts over the
proper framework.
The intra-circuit conflicts combined with the Ninth
Circuit’s change in direction sow confusion in an area
where certainty is of paramount importance. If a mere

10
statistical disparity is enough to demonstrate a
discriminatory burden under Section 2, public officials
responsible for ensuring the integrity of elections must
take that into account when crafting new solutions for
problems that arise. But officials like the amici
Secretaries cannot afford to gamble on the legality of
their election procedures, not knowing which standard
might apply.
CONCLUSION
The Court should grant the Petition and resolve this
conflict. Without a clear rule, the amici Secretaries face
uncertainty about the legal standard governing the
election practices and procedures of their respective
States. And this uncertainty arises in an area of critical
importance: the administration of our electoral process.
Only this Court can clear up the confusion by providing
guidance to both the public officials responsible for
ensuring fair and open elections and the courts that
will apply the Voting Rights Act when procedures are
challenged.

11
Respectfully submitted,
VICTOR B. MADDOX
Assistant Deputy Attorney General
BRETT R. NOLAN
Special Litigation Counsel
Counsel of Record
Office of the Kentucky
Attorney General
700 Capital Ave., Ste. 118
Frankfort, KY 40601
(502) 696-5300
Brett.Nolan@ky.gov
Counsel for Amici Secretaries of State

